Department of Health and Human Services
              OFFICE OF
         INSPECTOR GENERAL




 INAPPROPRIATE MEDICARE
   PART D PAYMENTS FOR
 SCHEDULE II DRUGS BILLED
        AS REFILLS




                    Daniel R. Levinson
                     Inspector General

                     September 2012
                     OEI-02-09-00605
EXECUTIVE SUMMARY: INAPPROPRIATE MEDICARE PART D PAYMENTS
FOR SCHEDULE II DRUGS BILLED AS REFILLS
OEI-02-09-00605


WHY WE DID THIS STUDY

Schedule II drugs have the highest potential for abuse of any prescription drugs legally
available in the United States. They include narcotics commonly used to relieve pain and
stimulants. Federal law prohibits the refilling of prescriptions for them. In addition,
Schedule II drugs cannot be dispensed without a prescription that contains the name,
address, and signature of the prescriber.

HOW WE DID THIS STUDY

We based this study on an analysis of prescription drug event records. Sponsors submit
these records to the Centers for Medicare & Medicaid Services (CMS) for each drug
dispensed to beneficiaries enrolled in their plans. Each record contains information about
the pharmacy, prescriber, and drug. We analyzed all of the records for refills of Schedule
II drugs that were billed in 2009.

WHAT WE FOUND

Medicare Part D inappropriately paid $25 million for Schedule II drugs billed as refills in
2009. Sponsors should not have paid for any of these drugs because Federal law
prohibits the refilling of Schedule II controlled substances. Some of these drugs may
have been inaccurately billed. It is possible that some long-term-care pharmacies
incorrectly billed these drugs as refills when they were partial fills. Partial fills occur
when a pharmacist does not dispense all doses of the prescribed medication at one time.
Several concerns exist, however, if partial fills are inaccurately billed as refills.
Moreover, over 25,000 Schedule II refills had invalid prescribers. Lastly, three-quarters
of Part D sponsors paid for Schedule II drugs billed as refills, indicating that many
sponsors do not have adequate controls to prevent these refills.

WHAT WE RECOMMEND

We recommend that CMS: (1) issue guidance to sponsors to prevent billing of
Schedule II refills and to ensure accurate billing of partial fills; (2) exclude Schedule II
refills when calculating payments to sponsors; (3) monitor sponsors to ensure that they
validate prescriber numbers for Schedule II drugs; and (4) follow up on sponsors,
pharmacies, and prescribers with high numbers of refills. CMS concurred with our
recommendation to monitor sponsors to ensure they validate prescriber numbers and
partially concurred with the other three recommendations.
TABLE OF CONTENTS

Objective ......................................................................................................1
Background ..................................................................................................1
Methodology ................................................................................................6
Findings........................................................................................................9
           Medicare Part D inappropriately paid $25 million for Schedule II
           drugs billed as refills in 2009 ...........................................................9
           Some of these drugs may have been inaccurately billed ...............10
           Over 25,000 of the Schedule II drugs billed as refills had
           invalid prescribers .......................................................................... 11
           Three-quarters of Part D sponsors paid for Schedule II drugs
           billed as refills ................................................................................12
Conclusion and Recommendations ............................................................13
           Agency Comments and Office of Inspector General Response.....15
Appendix ....................................................................................................17
           A: Agency Comments ...................................................................17
Acknowledgments......................................................................................21
                   OBJECTIVE
                   To determine the extent to which Medicare Part D paid for Schedule II
                   drugs billed as refills in 2009.

                   BACKGROUND
                   Schedule II drugs have the highest potential for abuse of any prescription
                   drugs legally available in the United States. 1 They include narcotics
                   commonly used to relieve pain and stimulants. The Drug Enforcement
                   Agency (DEA) regulates Schedule II drugs, and the Controlled Substance
                   Act prohibits the refilling of prescriptions for them. In 2009, Medicare
                   Part D paid $2.2 billion for Schedule II drugs.
                   Abuse of Schedule II and other prescription drugs is a serious problem.
                   The Centers for Disease Control and Prevention (CDC) has characterized
                   prescription drug abuse as an epidemic. 2 In fact, more deaths in 2007
                   were caused by prescription painkillers, including several Schedule II
                   drugs, than by cocaine and heroin combined. 3
                   In addition to causing public health concerns, Schedule II drugs have been
                   at the center of several schemes to defraud the Medicare Part D program.
                   Schemes involving Schedule II drugs include forged prescriptions and
                   diversion through “unscrupulous pharmacists, doctors, and dentists.” 4 In a
                   recent case, two Los Angeles-based doctors were charged with health care
                   fraud for knowingly prescribing Schedule II drugs to individuals who did
                   not have a medical need for them. Over an 18-month period, Medicare
                   Part D paid more than $2.7 million for the Schedule II drugs prescribed by
                   these doctors. 5
                   There have also been several recent DEA settlements related to the
                   dispensing of Schedule II drugs. A long-term-care pharmacy recently

                   1
                     21 U.S.C. § 812. Also see 21 CFR § 1308.12 for a listing of drugs identified as Schedule II
                   substances.
                   2
                     CDC, Press Release, Prescription Painkiller Overdoses at Epidemic Levels,
                   November 1, 2011. Accessed at
                   http://www.cdc.gov/media/releases/2011/p1101_flu_pain_killer_overdose.html on
                   February 21, 2012.
                   3
                     CDC, Unintentional Drug Poisoning in the United States, July 2010. Accessed at
                   http://www.cdc.gov/HomeandRecreationalSafety/pdf/poison-issue-brief.pdf on July 12, 2011.
                   4
                     DEA, Drugs and Chemicals of Concern: Oxycodone. Accessed at
                   http://www.deadiversion.usdoj.gov/drugs_concern/oxycodone/summary.htm on
                   September 27, 2011.
                   5
                     Department of Justice (DOJ), Grand Jury Indicts 14 in Los Angeles-Based OxyContin Ring
                   That Allegedly Distributed Over 1 Million Pills of the Highly Addictive Painkiller,
                   October 13, 2011. Accessed at www.justice.gov/dea/pubs/states/newsrel/2011/la101311.html
                   on February 22, 2012.


Inappropriate Medicare Part D Payments for Schedule II Drugs Billed as Refills (OEI-02-09-00605)               1
                   agreed to pay $50 million to resolve Government claims that the pharmacy
                   had dispensed controlled substances without written prescriptions and did
                   not properly document partial fills of controlled substances. 6 DEA also
                   reached a settlement with a pharmaceutical distributor for failing to
                   maintain adequate controls to prevent the diversion of controlled
                   substances, specifically oxycodone. 7 In another case, a pharmacy benefits
                   manager recently paid almost $3 million to settle claims that it did not
                   have practices to prevent diversion of controlled substances and used
                   invalid DEA numbers at its mail-order pharmacies. 8
                   Schedule II Drugs
                   The Controlled Substances Act establishes five schedules of drugs that are
                   considered controlled. 9 These schedules are based on medical use and the
                   potential for abuse. The most restricted is Schedule I, which includes
                   drugs that have a high potential for abuse and no currently accepted
                   medical use in the United States. Schedule V is the least restricted.
                   Schedule II drugs have a high potential for abuse and may lead to severe
                   psychological or physical dependence. 10 These drugs include narcotics
                   and narcotic substances such as morphine, opium, oxycodone
                   (OxyContin), meperidine (Demerol), and fentanyl (Sublimaze or
                   Duragesic). They also include stimulants such as amphetamine
                   (Dexedrine, Adderall) and methylphenidate (Ritalin). 11
                   Schedule II drugs are subject to a number of restrictions under Federal law
                   and regulations. Specifically, Federal law prohibits the refilling of
                   prescriptions for Schedule II drugs. 12 In addition, Schedule II drugs
                   cannot be dispensed without a prescription that contains the name,




                   6
                     DEA, Omnicare in $50 Million Settlement—Largest Controlled Substance Settlement in
                   History, May 11, 2012. Accessed at
                   http://www.justice.gov/dea/pubs/states/newsrel/2012/det051112.html on May 15, 2012.
                   7
                     DEA, DEA Suspends for Two Years Pharmaceutical Wholesale Distributor’s Ability to Sell
                   Controlled Substances from Lakeland, Florida Facility, May 15, 2012. Accessed at
                   http://www.justice.gov/dea/pubs/pressrel/pr051512.html on May 24, 2012.
                   8
                     U.S. Attorney’s Office, Eastern District of Pennsylvania, “United States Settles With
                   Express Scripts Over Diversion Of Controlled Substances And Use Of Improper DEA
                   Numbers,” May 15, 2012. Accessed at
                   http://www.justice.gov/usao/pae/News/2012/May/esi_release.htm on May 22, 2012.
                   9
                     21 U.S.C. § 801 et seq.
                   10
                      21 U.S.C. § 812.
                   11
                      DEA, Pharmacist’s Manual, 2010, p. 5. Accessed at
                   http://www.deadiversion.usdoj.gov/pubs/manuals/pharm2/pharm_manual.pdf on
                   November 8, 2011.
                   12
                      21 U.S.C. § 829(a).


Inappropriate Medicare Part D Payments for Schedule II Drugs Billed as Refills (OEI-02-09-00605)              2
                   address, and signature of the prescriber. 13 DEA regulations further require
                   that Schedule II drugs be prescribed by individual practitioners who are
                   registered with DEA. 14
                   DEA guidance states that prescribing practitioners and pharmacists are
                   responsible for ensuring that Schedule II drugs are dispensed properly.
                   The guidance states that the practitioner is responsible for ensuring that
                   the prescription conforms to all Federal and State laws and regulations. 15
                   It further states that “a pharmacist who deliberately fills a questionable
                   prescription may be prosecuted, along with the issuing practitioner, for
                   knowingly and intentionally distributing controlled substances.” 16
                   In addition, Federal regulations limit the circumstances under which
                   partial fills of Schedule II drugs are permissable. 17 Partial fills occur when
                   a pharmacist does not dispense all doses of the prescribed medication at
                   one time; instead, the pharmacist dispenses the drug over multiple fills.
                   Partial fills of Schedule II drugs must be completed within 72 hours,
                   unless the patient is in a long-term-care facility or terminally ill. Partial
                   fills are not considered refills. 18
                   Medicare Part D
                   Medicare Part D provides an optional prescription drug benefit to
                   Medicare beneficiaries. The Centers for Medicare & Medicaid Services
                   (CMS) contracts with private insurance companies, known as sponsors, to
                   provide drug coverage to beneficiaries who choose to enroll. These
                   sponsors contract with a network of pharmacies to dispense drugs to the



                   13
                      In 2009, Schedule II drugs could not be dispensed without a written prescription except in
                   emergency situations and when dispensed directly to the ultimate user by a practitioner other
                   than a pharmacist. A paper prescription could be transmitted to the pharmacy by the
                   practitioner or his or her agent via facsimile machine. 21 CFR § 1301.11. Also see DEA,
                   Practitioner’s Manual Section V – Valid Prescription Requirements, 2006. Accessed at
                   http://www.deadiversion.usdoj.gov/pubs/manuals/pract/section5.htm on November 1, 2011.
                   Beginning in 2010, practitioners were allowed to sign and transmit electronic prescriptions for
                   controlled substances under certain circumstances. See 21 CFR § 1301.08.
                   14
                      Practitioners must be authorized to prescribe controlled substances by the jurisdiction in
                   which they are licensed to practice. DEA maintains a registry of all these practitioners and
                   includes their assigned DEA numbers and information about which schedules of drugs each is
                   allowed to prescribe. DEA registration grants practitioners Federal authority to handle
                   controlled substances. See 21 CFR § 1301.11.
                   15
                      DEA, Pharmacist’s Manual, 2010, p. 29. Accessed at
                   http://www.deadiversion.usdoj.gov/pubs/manuals/pharm2/pharm_manual.pdf on
                   November 8, 2011.
                   16
                      Ibid., p. 30.
                   17
                      21 CFR § 1306.13.
                   18
                      Although Schedule II drugs cannot be refilled, practitioners may issue multiple
                   prescriptions at one time, each authorizing a 90-day supply. 21 CFR § 1306.12.


Inappropriate Medicare Part D Payments for Schedule II Drugs Billed as Refills (OEI-02-09-00605)                3
                   beneficiaries enrolled in their plans. These pharmacies include, retail,
                   long-term-care, specialty, and mail-order pharmacies, among others. 19
                   Sponsors are required to safeguard Part D from fraud and abuse. CMS
                   recommends that sponsors use claims processing edits to monitor their
                   programs and to automatically deny payment, when appropriate. 20
                   Beginning in January 2012, CMS required sponsors to ensure that the
                   prescriber identifiers on Prescription Drug Event (PDE) records are active
                   and valid. They must also confirm that any controlled substances are
                   consistent with the schedule of drugs that the provider is allowed to
                   prescribe. To do this, sponsors must validate the DEA numbers on PDE
                   records for Schedule II drugs or map the National Provider Identifiers
                   (NPI) on the PDE records to the prescriber’s DEA number and then
                   confirm that the controlled substance is consistent with the prescriber’s
                   registration. 21 CMS also requires sponsors to have compliance plans that
                   contain measures to detect, prevent, and correct fraud, waste, and abuse. 22
                   As part of these plans, CMS expects that sponsors will monitor their
                   contractors and subcontractors, including their pharmacies. 23
                   CMS contractors are also charged with safeguarding Part D. CMS
                   contracts with two Medicare Drug Integrity Contractors (MEDIC) to help
                   identify Part D vulnerabilities. One MEDIC’s responsibilities include,
                   among other things, detecting, preventing, and investigating potential
                   fraud, waste, and abuse, as well as referring potential cases to law
                   enforcement. The other MEDIC’s responsibilities include performing
                   special studies and providing technical assistance to CMS. Additionally,
                   CMS contracts with a Recovery Audit Contractor (RAC) for Part D.
                   Beginning in 2012, the RAC will review excluded prescribers, excluded
                   pharmacies, and duplicate payments.




                   19
                      A specialty pharmacy dispenses high-cost drugs to patients with chronic, complex illnesses.
                   20
                      CMS, Prescription Drug Benefit Manual Chapter 9 – Part D Program to Control Fraud,
                   Waste, and Abuse, § 50.2.6.3.1, April 2006. Accessed at
                   http://www.cms.gov/PrescriptionDrugCovContra/Downloads/PDBManual_Chapter9_FWA.p
                   df on January 12, 2012.
                   21
                      CMS, Prescription Drug Manual – Chapter 5: Benefits and Beneficiary Protections,
                   §§ 90.2 and 90.2.4, September 2011. Accessed at http://www.cms.gov/Medicare/Prescription-
                   Drug-Coverage/PrescriptionDrugCovContra/Downloads/Memo
                   PDBManualChapter5_093011.pdf on May 8, 2012.
                   22
                      42 CFR § 423.504(b)(4)(vi).
                   23
                      Part D regulations and CMS guidance refer to these contractors and subcontractors as first-
                   tier and downstream entities. See 42 CFR § 423.501 and CMS, Prescription Drug Benefit
                   Manual Chapter 9 – Part D Program to Control Fraud, Waste, and Abuse, Part D Sponsors
                   Accountability and Oversight – Section 40, April 2006. Accessed at
                   http://www.cms.gov/PrescriptionDrugCovContra/Downloads/PDBManual_Chapter9_FWA.
                   pdf on July 19, 2011.


Inappropriate Medicare Part D Payments for Schedule II Drugs Billed as Refills (OEI-02-09-00605)               4
                   Prescription Drug Event Records
                   Sponsors submit a PDE record to CMS for each prescription filled for
                   their enrollees. CMS uses the records to administer the program and to
                   calculate its payments to sponsors at the end of each year in a process
                   known as reconciliation.
                   Each PDE record contains a unique identification number for the
                   prescriber. 24 Most PDE records contain the prescriber’s NPI, which CMS
                   issues to each health care provider. CMS maintains a registry of all
                   assigned NPIs, along with the name and address of the health care
                   providers. If an NPI does not appear in the registry, it has not been
                   assigned to a health care provider.
                   PDE records also include a field, called “Fill Number,” that indicates
                   whether a prescription is a refill. This field is one of several on the PDE
                   record that is standard throughout the industry. Industry standards are set
                   by the National Council for Prescription Drug Plans (NCPDP). NCPDP
                   instructs pharmacies to enter “0” for new prescriptions, “1” for a first
                   refill, and “2” for a second refill. 25
                   Sponsors are required to provide certification of the accuracy, completion,
                   and truthfulness of PDE data. 26 In addition, CMS takes steps to ensure the
                   accuracy of the PDE records. CMS performs edits on the PDE records
                   before it accepts them from sponsors. For example, CMS determines
                   whether certain data are missing and whether certain values are within
                   acceptable ranges. CMS considers values between 0 and 99 to be within
                   an acceptable range for the Fill Number field. 27




                   24
                      PDE records allow four types of prescriber identification numbers: NPIs, DEA numbers,
                   State license numbers, and Unique [Physician] Identification Numbers (UPIN). In
                   May 2008, CMS issued guidance stating that plans and pharmacies “should make all
                   reasonable efforts to obtain NPIs in the Prescriber ID field.” See CMS, Prescriber Identifier
                   on Part D NCPDP Pharmacy Claims Transactions, May 1, 2008. Accessed at
                   https://www.cms.gov/Medicare/Prescription-Drug-
                   Coverage/PrescriptionDrugCovContra/Downloads/MemoNPIPrescriberID_050108v2.pdf. on
                   June 6, 2012.
                   25
                      Pursuant to the Health Insurance Portability and Accountability Act of 1996, the Secretary
                   of Health and Human Services named the NCPDP Telecommunication Standards as the
                   electronic transaction standards for retail pharmacies. These standards define a “Fill Number”
                   of 0 to be the “original dispensing.” NCPDP’s Universal Claim Form Sample further defines
                   Fill Number values of 1 and 2 as refills. See NCPDP, Universal Claim Form Sample and
                   NCPDP, Telecommunication Standard Implementation Guide Version D.0, August 2010.
                   26
                      42 CFR § 423.505(k).
                   27
                      CMS, Medicare Part D Prescription Drug Event (PDE) Data Elements, April 8, 2008.
                   Accessed at https://www.cms.gov/Medicare/Prescription-Drug-
                   Coverage/PrescriptionDrugCovGenIn/downloads//PDEDataElements.pdf on April 12, 2012.


Inappropriate Medicare Part D Payments for Schedule II Drugs Billed as Refills (OEI-02-09-00605)               5
                   Related Work
                   Four recent Office of Inspector General (OIG) audits found that the
                   sponsors did not have adequate controls to ensure the accuracy of the PDE
                   data they submitted to CMS. 28 Three of these audits also found that the
                   sponsors did not have adequate controls to prevent Schedule II refills.
                   These reports recommended that the sponsors strengthen their controls and
                   issue guidance to their pharmacies, clarifying Federal requirements.
                   Another OIG report found that approximately 228,000 PDE records for
                   Schedule II drugs in 2007 did not contain valid prescriber identifiers. 29
                   CMS and sponsors performed edits on the prescriber identifier fields;
                   however, these edits were insufficient.

                   METHODOLOGY
                   Data Collection and Analysis
                   This report is based on analysis of PDE records for all drugs paid for by
                   Part D in 2009. In total, we identified 1.07 billion PDE records for Part D
                   prescriptions filled between January 1 and December 31, 2009.
                   To identify the PDE records for Schedule II drugs, we matched the PDE
                   records to First DataBank using the National Drug Code on the PDE
                   records. First DataBank contains information about each drug, including
                   its name; whether it is a controlled substance; and, if so, the schedule of
                   the drug. We identified 20.1 million PDE records for Schedule II drugs
                   billed by 61,472 pharmacies. 30 To identify the PDE records that were
                   refills for Schedule II drugs, we looked at the Fill Number field on the
                   PDE record. The first time a prescription is filled the Fill Number should
                   be 0. Any value greater than 0 is considered a refill.




                   28
                      OIG, Review of Medicare Part D Prescription Drug Event Data for Schedule II Drugs at
                   Health Net, Inc., A-09-10-02046, September 2011. OIG, Review of Medicare Part D
                   Prescription Drug Event Data for Schedule II Drugs at CVS Caremark Corporation,
                   A-09-11-02074, February 2012. OIG, Review of Medicare Part D Prescription Drug Event
                   Data for Schedule II Drugs at Hawaii Medical Services Association, A-09-11-02028,
                   December 2011. OIG, Review of Medicare Part D Prescription Drug Event Data for
                   Schedule II Drugs at United HealthCare Medicare & Retirement, A-09-11-02023, July 2012.
                   29
                      OIG, Oversight of Prescriber Identifier Field in Prescription Drug Event Data for
                   Schedule II Drugs, A-14-09-00302, February 2011. Accessed at
                   http://oig.hhs.gov/oas/reports/other/140900302.pdf on November 1, 2011. Another OIG
                   report looked at the prescriber identifiers for PDE records billed in 2007. It found that
                   Medicare Part D paid $1.2 billion for drugs with invalid prescriber identifiers. See OIG,
                   Invalid Prescriber Identifiers on Medicare Part D Claims, OEI-03-09-00140, June 2010.
                   30
                      To determine the total number of pharmacies, we used the NPI. If we were unable to
                   identify the NPI for the pharmacy, we did not include the PDE record in our analysis. In total,
                   we excluded less than 0.1 percent of all PDE records.


Inappropriate Medicare Part D Payments for Schedule II Drugs Billed as Refills (OEI-02-09-00605)                6
                   Next, we calculated the total number of Schedule II drugs billed to
                   Medicare Part D in 2009. To calculate the cost of these refills, we
                   summed the three fields that indicate the gross drug costs—the ingredient
                   cost, dispensing fee, and sales tax. These fields include the amount paid
                   by Part D sponsors, the Government, and by or on behalf of beneficiaries.
                   In addition, we determined the most common Schedule II drugs that were
                   refilled. For the purpose of this report, we considered drugs with the same
                   name as the same drug, regardless of dosage or strength.
                   We then determined the total number of pharmacies that billed for refills
                   of Schedule II drugs and the type of pharmacy, i.e., retail, long-term-care,
                   or other type, that billed for each refill. 31 We used the NPI for each
                   pharmacy and matched it to the NCPDP database to identify the type of
                   pharmacy. We calculated the percentage and the average number of refills
                   of Schedule II drugs that were billed by each type of pharmacy.
                   Next, we determined the total number of prescribers who were associated
                   with Schedule II refills and whether the prescriber identifiers were valid. 32
                   To do this, we checked the NPI or DEA identification number on the PDE
                   records against CMS and DEA files. 33 In October 2010, we obtained
                   CMS’s registry of active NPI numbers through its National Plan and
                   Provider Enumeration System and accessed a file of active DEA
                   registrants. We also obtained lists of inactive NPI numbers and retired
                   DEA registration numbers. We compared the NPI and DEA prescriber
                   identifiers on the PDE records to these registries. We considered a
                   prescriber identifier to be invalid if it had never been assigned or if it had
                   been deactivated or retired before January 1, 2009. We also considered a
                   prescriber identifier to be invalid if it was assigned to a pharmacy, i.e., the
                   pharmacy’s NPI was listed as the prescriber.
                   Lastly, to identify the sponsors that paid for Schedule II refills, we
                   matched the contract number on the PDE records with data from CMS’s
                   Health Plan Management System. We used this information to calculate
                   the total number of Schedule II refills paid for by each sponsor. 34




                   31
                      We could not identify the pharmacy type for 2,585 refills.
                   32
                      Prescribers can use multiple identifiers to prescribe drugs, such as a DEA number or an
                   NPI. This analysis is based on the identifier on the PDE record. We did not aggregate all
                   identification numbers for each individual prescriber.
                   33
                      Less than 1 percent (0.92 percent) of refills were billed using other types of prescriber
                   identifiers, such as UPINs and State license numbers. In these cases, we assumed the
                   prescriber identifiers were valid.
                   34
                      We identified two invalid sponsor identification numbers. We did not include these invalid
                   numbers in our analysis of sponsors. In total, these two numbers accounted for 477 refills.


Inappropriate Medicare Part D Payments for Schedule II Drugs Billed as Refills (OEI-02-09-00605)               7
                   Limitations
                   This review is based on an analysis of PDE data; we did not review
                   documentation from the pharmacies or prescribers to verify the data. We
                   also did not independently verify the accuracy of the data from First
                   DataBank or NCPDP.
                   Standards
                   This study was conducted in accordance with the Quality Standards for
                   Inspection and Evaluation issued by the Council of the Inspectors General
                   on Integrity and Efficiency.




Inappropriate Medicare Part D Payments for Schedule II Drugs Billed as Refills (OEI-02-09-00605)   8
                   FINDINGS
                   Medicare Part D inappropriately paid $25 million for
                   Schedule II drugs billed as refills in 2009
                   In 2009, Medicare Part D inappropriately paid for 397,203 Schedule II
                   drugs billed as refills. These drugs amounted to $24.6 million and
                   accounted for 2 percent of all Schedule II drugs dispensed in 2009. 35
                   Sponsors should not have paid for any of these drugs because Federal law
                   prohibits the refilling of Schedule II drugs. Schedule II drugs can be
                   highly addictive and are commonly abused. Also, they are often diverted
                   and resold for profit. CMS relies on sponsors to ensure that Part D does
                   not pay for Schedule II refills.
                   Fentanyl and oxycodone-acetaminophen were the Schedule II drugs most
                   commonly billed as refills. These two drugs accounted for more than half
                   of all Schedule II refills. See Table 1. Fentanyl is a painkiller with effects
                   similar to those of heroin, but hundreds of times more potent. 36
                   Oxycodone with acetaminophen is a commonly abused painkiller that
                   provides a euphoric high. 37 According to DOJ, a 100-tablet bottle of
                   40-milligram OxyContin (the brand-name version of oxycodone) sells for
                   approximately $2,000 to $4,000 on the street. 38




                   35
                      The total includes the amounts paid by Part D sponsors, the Government, and by or on
                   behalf of beneficiaries.
                   36
                      DEA, Briefs and Backgrounds: Fentanyl. Accessed at
                   http://www.justice.gov/dea/concern/fentanyl.html#fentanyl on September 27, 2011.
                   37
                      DEA, Oxycodone. Accessed at
                   http://www.deadiversion.usdoj.gov/drugs_concern/oxycodone/oxycodone.pdf on
                   June 6, 2012.
                   38
                      DOJ, National Drug Intelligence Center, OxyContin Diversion and Abuse, January 2001.
                   Accessed at http://www.justice.gov/ndic/pubs/651/abuse.htm on November 10, 2011.


Inappropriate Medicare Part D Payments for Schedule II Drugs Billed as Refills (OEI-02-09-00605)             9
Table 1: Refills of Schedule II Drugs Paid by Medicare Part D, 2009

                                                                             Percentage of All
Drug Name                                       Number of Refills                                  Total Amount Paid
                                                                            Schedule II Refills

Fentanyl                                                  123,102                          31%           $11,624,163

Oxycodone-acetaminophen                                    80,202                          20%             $852,634

Morphine sulphate                                          45,580                          11%            $1,565,523

Oxycodone HCl                                              42,063                          11%            $2,121,718

OxyContin                                                  20,522                           5%            $4,432,056

Methadone HCl                                              19,592                           5%             $254,755

Oxycodone HCl-acetaminophen                                14,034                           4%             $698,090

Methadone insensol                                         14,020                           4%             $230,683

Hydromorphine HCl                                          10,134                           3%             $353,840

Endocet                                                      6,911                          2%             $339,387

Other drugs                                                21,043                           5%            $2,098,310

   Total                                                  397,203                        100%*           $24,571,159

*Total does not equal 100 percent because of rounding.
Source: OIG analysis of Part D data, 2012.




                     Some of these drugs may have been inaccurately
                     billed
                     A total of 12,356 pharmacies billed for refills of Schedule II drugs in
                     2009. 39 Six percent of these pharmacies were long-term-care pharmacies.
                     These pharmacies billed for 75 percent of the Schedule II refills. In
                     comparison, retail pharmacies billed for 17 percent of the Schedule II
                     refills. 40 Long-term-care pharmacies billed for more refills on average
                     than other types of pharmacies. On average, long-term-care pharmacies
                     billed for 423 refills each, while retail pharmacies billed for 6 each.
                     It is possible that some long-term-care pharmacies incorrectly billed these
                     drugs as refills when the drugs were actually dispensed as partial fills.
                     Partial fills for Schedule II drugs are allowed for beneficiaries in long-
                     term-care facilities when certain conditions are met. For example, if a
                     physician prescribes a 28-day supply of a Schedule II drug, the pharmacy


                     39
                        These pharmacies represent 20 percent of all pharmacies and 44 percent of long-term-care
                     pharmacies that billed for Schedule II drugs in 2009.
                     40
                        The remaining refills were billed by other types of pharmacies, which included mail-order,
                     institutional, and home-infusion pharmacies.


Inappropriate Medicare Part D Payments for Schedule II Drugs Billed as Refills (OEI-02-09-00605)                 10
                   does not have to dispense all 28 days at one time. Instead, it can dispense
                   four 7-day supplies or two 14-day supplies.
                   The data from long-term-care pharmacies provide further evidence that
                   these refills may have actually been partial fills. Notably, the Schedule II
                   drugs billed as refills were often for shorter supplies than nonrefills of
                   Schedule II drugs. For example, 82 percent of Schedule II drugs billed as
                   refills were for less than a month’s supply, while 42 percent of nonrefills
                   were for less than a month’s supply.
                   CMS officials noted that, according to their industry contacts, long-term-
                   care pharmacies do not have a consistent approach to billing partial fills.
                   They further explained that long-term-care pharmacies may bill partial
                   fills differently depending upon the sponsor they are billing and the
                   software they use.
                   Inaccurate billing of partial fills as refills raises several concerns. First,
                   beneficiaries may be paying multiple copayments instead of one for these
                   drugs. If the beneficiary receives the low-income cost-sharing subsidy, the
                   Government pays these additional costs. 41 Second, incorrect billing
                   affects the accuracy of PDE data. As noted earlier, four recent OIG audits
                   found problems with the accuracy of PDE data. 42 These audits found that
                   the sponsors did not have adequate controls to ensure the accuracy of the
                   PDE data they submitted to CMS. Data accuracy is important because it is
                   the basis on which sponsors are paid. Also, sponsors, CMS, and OIG use
                   PDE data to detect and prevent fraud, waste, and abuse. Poor data can
                   hinder these efforts.

                   Over 25,000 of the Schedule II drugs billed as refills
                   had invalid prescribers
                   Medicare paid for 25,836 refills of Schedule II drugs that did not have
                   valid prescriber information. As noted earlier, Schedule II drugs cannot be
                   dispensed without a prescription that contains the name, address, and
                   signature of the prescriber. These refills accounted for 7 percent of



                   41
                      Most beneficiaries are responsible for paying certain costs, such as coinsurance, under
                   Part D. However, certain low-income beneficiaries are eligible to receive assistance to pay
                   some or all of these costs. The low-income cost-sharing subsidy refers to the Government’s
                   portion of cost-sharing payments for these beneficiaries.
                   42
                      OIG, Review of Medicare Part D Prescription Drug Event Data for Schedule II Drugs at
                   Health Net, Inc., A-09-10-02046, September 2011. OIG, Review of Medicare Part D
                   Prescription Drug Event Data for Schedule II Drugs at CVS Caremark Corporation,
                   A-09-11-02074, February 2012. OIG, Review of Medicare Part D Prescription Drug Event
                   Data for Schedule II Drugs at Hawaii Medical Services Association, A-09-11-02028,
                   December 2011.


Inappropriate Medicare Part D Payments for Schedule II Drugs Billed as Refills (OEI-02-09-00605)             11
                   Schedule II refills billed. Medicare Part D paid a total of $1.4 million for
                   these refills.
                   Specifically, 2,360 of the Schedule II refills billed had no prescriber
                   number. Another 11,491 had numbers that had not been assigned to a
                   provider, such as “AB0000000.” The remaining 11,985 listed the
                   identification numbers of pharmacies, not the numbers of individual
                   prescribers.
                   Being able to identify the prescriber helps ensure that Schedule II drugs
                   are prescribed and dispensed properly. When the prescriber number is
                   unknown or invalid, it creates significant vulnerabilities and hinders
                   efforts by sponsors, CMS, and OIG to safeguard the program. CMS has
                   recently made several changes to ensure that prescriber numbers are valid.
                   As of January 2012, CMS required sponsors to ensure that the prescriber
                   identifiers on the PDE records are active and valid.
                   Overall, in 2009, 38,979 prescribers were associated with Schedule II
                   drugs billed as refills. Most of these prescribers were associated with one
                   or two refills each; however, a number were associated with hundreds of
                   refills.

                   Three-quarters of Part D sponsors paid for Schedule II
                   drugs billed as refills
                   In total, 270 Part D sponsors paid for at least one Schedule II drug in
                   2009. Of these, 194 paid for Schedule II drugs billed as refills. Each of
                   these sponsors paid for between 1 and 81,576 refills. Twenty-four
                   sponsors paid for more than 1,000 Schedule II refills each; three of these
                   sponsors were responsible for almost half of all Schedule II refills billed.
                   These findings indicate that many sponsors do not have adequate controls
                   to prevent refills of Schedule II drugs. As noted earlier, recent audits of
                   three sponsors found that these sponsors did not have controls to prevent
                   these refills.




Inappropriate Medicare Part D Payments for Schedule II Drugs Billed as Refills (OEI-02-09-00605)   12
                   CONCLUSION AND RECOMMENDATIONS
                   Federal law prohibits the refilling of Schedule II drugs. Despite this,
                   Medicare Part D inappropriately paid $25 million for Schedule II drugs
                   billed as refills in 2009. Some of these drugs may have been incorrectly
                   billed. In addition, we found that numerous refills of Schedule II drugs
                   had invalid prescribers, despite requirements that Schedule II drugs cannot
                   be dispensed without a prescription that contains the name, address, and
                   signature of the prescriber. Further, three-quarters of all sponsors paid for
                   Schedule II drugs billed as refills, indicating that many sponsors do not
                   have adequate controls to prevent these refills.
                   These findings raise a number of concerns. Under no circumstances
                   should Medicare pay for refills of Schedule II drugs. Paying for such
                   drugs raises public health concerns and may contribute to the diverting of
                   controlled substances and their being resold on the street. The findings
                   also raise questions about the accuracy of Part D data. Data accuracy is
                   important because it is the basis on which sponsors are paid and CMS,
                   OIG, and others use the data to detect and prevent fraud, waste, and abuse
                   in Part D. Also, if some of these refills are actually partial fills and are not
                   accurately billed as such, beneficiaries and the Government may be
                   overpaying for copayments.
                   We recommend that CMS:
                   Issue Guidance to Sponsors To Prevent Billing of Schedule II
                   Refills and To Ensure Accurate Billing of Partial Fills
                   CMS should work with sponsors and pharmacies to determine why many
                   sponsors do not have controls to prevent refills and why certain
                   pharmacies, particularly long-term-care pharmacies, are billing for
                   Schedule II refills.
                   CMS should use this information to develop guidance to sponsors to
                   prevent Schedule II refills and to ensure accurate billing of partial fills.
                   The guidance should clarify what controls sponsors need to have and how
                   to bill for partial fills, including how to bill for copayments so that
                   beneficiaries are not overcharged and the Government does not overpay
                   for these drugs.
                   Exclude Schedule II Refills When Calculating Payments to
                   Sponsors
                   CMS should put edits in place to identify refills of Schedule II drugs
                   submitted by sponsors. CMS should exclude these PDE records when
                   calculating its final payments to sponsors at the end of each year.




Inappropriate Medicare Part D Payments for Schedule II Drugs Billed as Refills (OEI-02-09-00605)   13
                   Monitor Sponsors To Ensure That They Validate Prescriber
                   Numbers for Schedule II Drugs
                   CMS has made a number of recent changes to ensure that prescriber
                   identification numbers are valid. Beginning in 2012, sponsors must
                   validate the prescriber number on the claim and confirm that the
                   controlled substance is consistent with the schedule of drugs that the
                   provider is allowed to prescribe. CMS should monitor sponsors closely to
                   ensure that they are complying with the new requirements.
                   Follow Up on Sponsors and Pharmacies With High Numbers of
                   Refills
                   In a separate memorandum, we will refer the sponsors and pharmacies
                   with high numbers of Schedule II refills to CMS for appropriate action.




Inappropriate Medicare Part D Payments for Schedule II Drugs Billed as Refills (OEI-02-09-00605)   14
                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   CMS concurred with one of our recommendations and partially concurred
                   with the other three. In addition, CMS stated that it is highly likely that
                   OIG is misinterpreting partial fills dispensed to patients in long-term-care
                   facilities as refills of Schedule II drugs. In response, we note that this is
                   not an issue of misinterpretation of the data; the data clearly show that
                   these Schedule II drugs were billed as refills. We cannot assume that all
                   drugs billed as refills by long-term-care pharmacies are partial fills,
                   especially when the claims data offer no evidence to that effect. We
                   further note that not all long-term-care pharmacies bill for Schedule II
                   refills. As a result, we acknowledge in the report that some long-term-care
                   pharmacies may be incorrectly billing these drugs as refills; however,
                   under no circumstances should CMS pay for Schedule II drugs that are
                   billed as refills.
                   CMS concurred with our recommendation to monitor sponsors to ensure
                   that they validate prescriber numbers for Schedule II drugs. CMS stated
                   that it began validating the format of the prescriber identifiers that are
                   coded as NPIs and will exclude from payment reconciliation PDEs with
                   invalid NPIs.
                   CMS partially concurred with our recommendation to issue guidance to
                   sponsors to prevent billing of Schedule II refills and to ensure accurate
                   billing of partial fills. CMS stated that it has already provided guidance
                   regarding partial fills and will consider releasing further guidance with
                   respect to copayments on partial fills, if it is determined to be necessary.
                   CMS did not agree to work with individual sponsors and pharmacies to
                   determine why sponsors do not have controls to prevent such refills; it will
                   instead explore the use of PDE edits to prevent such billing practices.
                   CMS partially concurred with our recommendation to exclude Schedule II
                   refills when calculating payments to sponsors. It agreed that edits should
                   be in place to prevent billing of Schedule II drugs as refills and that it will
                   explore modifying PDE edits to alert Part D sponsors to inappropriate
                   refills of Schedule II drugs. CMS did not agree with excluding
                   Schedule II drugs billed as refills when calculating payments to sponsors.
                   It stated that it will cite the results of this report in guidance to plans and,
                   as indicated above, will examine placing PDE edits to alert sponsors to
                   inappropriate refills, which should eliminate any future reconciliation
                   issues associated with the billing of Schedule II drugs as refills.
                   Lastly, CMS partially concurred with our recommendation to follow up
                   with sponsors and pharmacies with high numbers of refills. CMS agreed


Inappropriate Medicare Part D Payments for Schedule II Drugs Billed as Refills (OEI-02-09-00605)   15
                   that it should follow up with industry through NCPDP to determine
                   whether there is another acceptable use of the standard that could be used
                   to distinguish legally dispensed partial fills of Schedule II drugs in long-
                   term care from illegally dispensed refills. If there is, CMS will explore
                   options for either encouraging or requiring the use of that alternative
                   process to improve controls over fraud, waste, and abuse.
                   We support CMS’s efforts to address these issues. For the full text of
                   CMS’s comments, see Appendix A.




Inappropriate Medicare Part D Payments for Schedule II Drugs Billed as Refills (OEI-02-09-00605)   16
                               APPENDIX A
                               Agency Comments


           ,.!>f:ll\'10~




     (''    .~ 	                DEPARTMENT OF HEALTH & HUMAN SERVICeS
                                                                                                            Centers for Medicare & Med1caid Services
                                                                                                      OffiCe of Strategsc Operations and Regulatory Alfa1rs


      '··~::-z~                                                                                             200 Independence Avenue SW
                                                                                                            Washington, DC 20201




                           DATE:           AUG   o 2 2012
                           TO: 	          Daniel R. Levinson 

                                          Inspec.nu General 

                                                               /S/
                           FROM: 	        M\mlyn 't'!Wcnner 

                                          Actin~ 1'-;dm\nistrator 



                           SUBJECT: 	 Office of Inspector General (OIG) Draft Report: ''Inappropriate Medicare Part D
                                      Payments for Schedule II Drugs Billed as Refills" (OEI-02-09-00605)


                           Thank you for the opportunity to review and comment on this OIG draft report to determine the
                           extent to which Medicare Part D paid for Schedule II drugs billed as refills in 2009. The Centers
                           for Medicare & Medicaid Services (CMS) appreciates the OIG's concern for the potential fraud
                           and abuse associated with Schedule II drugs. Nevertheless, CMS is concerned that the OIG's
                           interpretation of prescription drug event (PDE) data does not support its finding that Medicare
                           inappropriately paid for Schedule II drugs billed as refills. Given the known limitation of the
                           National Council of Prescription Drug Program (NCPDP) electronic pharmacy billi ng standard
                           (the HIPAA standard) for billi ng partial fills of Schedule II drugs appropriately dispensed to
                           patients in long-term care facilities, it is highly likely that OIG is misinterpreting partial fills
                           dispensed to long-term care facility residents as refills of Schedule II drugs.

                           In long-term care facilities, 21 C.F.R. 1306.13(b) allows for the partial filling of prescription
                           Schedule II drugs in order to reduce the quantity of drugs on hand. However, the dispensing
                           status field on the NCPDP electronic phannacy billing standard may not be used to indicate this
                           type of partial fill for Schedule II drugs. The standard limits the use of this field to situations
                           where inventory shortages do not allow the full quantity to be dispensed. Use of this field in
                           contravention of the standard would be a Health Insurance Portability and Accountability Act
                           (HIPAA) violation. Consequently, phannacics u~e the fill number field to distinguish multiple
                           partial fills of Schedule II controlled substances in long-term care tor billing purposes (to avoid
                           rejection as a duplicate claim) and, therefore, the fill number cannot be relied upon to identify
                           illegal refills.

                           The OIG reports that "refills" of Schedule II drugs were identified using the fill number field on
                           the PDE record. The PDE data show that 75 percent of these claims in question were billed by
                           long-term care pharmacies. A~ discussed above, we believe these claims more likely represent
                           legally dispensed partial fills as opposed to illegal refills. The OIG also reports that retail
                           phannacies billed for 17 percent ol the claims in question. Yet, we point out that these could still
                           represent partial fills for patients in long-term care facilities. Although a national provider




Inappropriate Medicare Part D Payments for Schedule II Drugs Billed as Refills (OEI-02-09-00605)                                                              17
Inappropriate Medicare Part D Payments for Schedule II Drugs Billed as Refills (OEI-02-09-00605)   18
Inappropriate Medicare Part D Payments for Schedule II Drugs Billed as Refills (OEI-02-09-00605)   19
Inappropriate Medicare Part D Payments for Schedule II Drugs Billed as Refills (OEI-02-09-00605)   20
                   ACKNOWLEDGMENTS
                   This report was prepared under the direction of Jodi Nudelman, Regional
                   Inspector General for Evaluation and Inspections in the New York regional
                   office, and Nancy Harrison and Meridith Seife, Deputy Regional
                   Inspectors General.
                   Miriam Anderson served as the team leader for this study. Other principal
                   Office of Evaluation and Inspections staff from the New York regional
                   office who contributed to the report include Jenell Clarke and Jason
                   Kwong; central office staff who contributed include Eddie Baker, Jr.,
                   Kevin Farber, Meghan Kearns, Debra Roush, and Rita Wurm.




Inappropriate Medicare Part D Payments for Schedule II Drugs Billed as Refills (OEI-02-09-00605)   21
                      Office of Inspector General
                                         http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out through
a nationwide network of audits, investigations, and inspections conducted by the following operating
components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all
50 States and the District of Columbia, OI utilizes its resources by actively coordinating with the
Department of Justice and other Federal, State, and local law enforcement authorities. The investigative
efforts of OI often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
